                           Office of the Inspector General
                   Corporation for National and Community Service



                         Pre-Audit Survey Report of the
                        Rhode Island Service Alliance:
                A Commission for National and Community Service


                          OIG Audit Report Number 00-27
                               December 15,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS- OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # J-9-G-8-0024
                                    Task Order B9G9X103



This report was issued to Corporation management on June 23,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
December 20,2000, and complete its corrective actions by June 23,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                             CORPORATION
                       Corporation for National and Community Service                    FOR NATIONAL


                                 Pre-Audit Survey of the
                              Rhode Island Service Alliance:
                      A Commission for National and Community Service
                             OIG Audit Report Number 00-27


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions7 operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including ArneriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin PCtopeform thepre-audi't survey of the Rhode Island Service
Alliance. Based on the limitedproceduresperformed, UKWconcluded that the Rhode Island Service
Alliance appears to have an open and competitive process to select national service subgrantees and
that its controls related to fiscal administration and training and technical assistance funding
appear to be adequate. However, UKWfound inadequacies in the Rhode Island Service Alliance's
documentation of its monitoringprocesses.


                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 20.52.5
In their report, which follows, UKW includesfindings and recommendations in the areas offiscal
administration and monitoring directed to the Rhode Island Service Alliance and to CNS. However,
although UKWrecommends that the Corporationfollow-up to determine that corrective actions are
effectively put into place, the firm does not believe that a full-scope financial audit of the Rhode
Island Service Alliance is necessary. Instead, UKWrecommends that OIG review their A-133 audit
reports and supporting work papers to determine whether additional audit work is necessary.

We have reviewed UKW's pre-audit survey report and work papers supporting its conclusions, and
we agree with the findings and recommendations presented. We provided a draft of this report to
the Rhode Island Service Alliance and to the Corporation. The Rhode Island Service Alliance's
response (Appendix C) expresses their disagreement with most of the findings. The Corporation's
response (Appendix D) indicates that the Corporation plans to follow-up on the corrective actions
when the Commission is reviewed during the Corporation's administrative review process.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                   Pre-Audit Survey Report of the
                                   Rhode Island Service Alliance:
                           A Commission for National and Community Service


                                                         Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................   1

  Background ................................................................................................................................. 2

  Overview of the Rhode Island Commission .............................................................................. 3

  Objectives, Scope and Methodology ......................................................................................... .4

  Findings and Recommendations ................................................................................................                  .5


Appendices

  Appendix A - Rhode Island Commission Funding - 1995 through 1999 ................................ 10

  Appendix B - Detailed Engagement Objectives and Methodology ......................................... 15

  Appendix C - Rhode Island Commission Response .................................................................                                18

  Appendix D - Corporation Response ........................................................................................22
UK Urbach Kahn & Werlin PC
6aXI CERTIFIED PUBLIC ACCOUNTANTS

        Inspector General
        Corporation for National and Community Service

        At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Rhode
        Island Service Alliance: A Commission for National and Community Service. The primary
        purpose of this survey was to provide a preliminary assessment of:

               the adequacy of the pre-award selection process;

               the fiscal procedures at the Commission;

               the effectiveness of monitoring Rhode Island State subgrantees, including
               ArneriCorps Member activities and service hours; and

               the controls over the provision of training and technical assistance.

        We were also asked to report on the recommended scope of additional audit procedures to be
        performed at the Rhode Island Commission.

        RESULTS IN BRIEF

        Based on the results of the limited procedures performed, we have made the following
        preliminary assessments regarding the Commission7s systems for administering grants
        received from the Corporation.

           The Commission appears to have an adequate pre-award selection process to select
           national service subgrantees, and related systems and controls appear to be functioning as
           designed.

           The Commission appears to have an adequate process in place for the fiscal
           administration of grants. However, we identified an area of improvement related to the
           lack of evidence of Financial Status Report review, including matching recalculation for
           years prior to 1999.

           The Commission does not have adequate controls in place to evaluate and monitor
           subgrantees.

            The Commission appears to have adequate controls in place to provide reasonable
            assurance that training and technical assistance is made available and provided to
            subgrantees.



                                                                  -1-
                      1030 Fifteenth Street NW, Washington, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                    A n Independent Member of Urbach Hacker Young lnternarional
Based on our preliminary assessments, we do not believe a full-scope financial audit of the
Rhode Island Commission's programs is necessary at this time. We recommend the OIG
review the Commission's A-133 audit reports and supporting auditors' workpapers and
determine if additional work is necessary. The OIG should also consider limited procedures
at subgrantee sites, including verification of reported Member service hours and matching
amounts by subgrantees.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein
and that the Corporation consider these conditions in its oversight and monitoring of the
Rhode Island Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
StateLNational funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved applicants for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to ArneriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
0 VERVIEW OF THE RHODE ISLAND COMMISSION

The Rhode Island Service Alliance: A Commission for National and Community Service is
headquartered in Providence, Rhode Island. The Commission has been providing national
and community service programs in its current form since 1995. The Commission reported
that it received funding from the Corporation totaling $1,746,916 in 1995; $2,5 11,875 in
1996; $2,533,862 in 1997; $3,287,550 in 1998; and $3,225,196 in 1999. Additional
information on the Commission's funding is presented in Appendix A.

The Commission currently has four full-time staff consisting of an Executive Director, an
Associate Director, a Program Officer, and a Director of Training. In addition, the
Commission has a consulting contract with a Certified Public Accountant to perform fiscal
management reviews of subgrantee systems prior to the final grant award.

The Rhode Island Service Alliance is a nonprofit corporation exempt from federal and state
income taxes as a public charity under Section 501 (c)(3) of the Internal Revenue Code. The
Commission contracts with a CPA to conduct its annual OMB Circular A-133 audit. For
fiscal years ending September 30, 1997 and 1998, the AmeriCorps program was considered a
major program. The ArneriCorps, Learn and Serve, and Administrative Grants were
considered major programs for fiscal years ending September 30, 1995 and 1996.

There were no findings, recommendations, or questioned costs identified at the Commission
prior to 1998. During the 1998 audit, it was discovered that the Commission maintained a
cash balance greater than $100,000 at times and that there was no formal procurement policy.
The Commission changed banks to alleviate the FDIC $100,000 insurance cap and
implemented a formal procurement policy.

The Commission provided the following information regarding subgrantee A-133 audits:

                  Total Amount of                                   Number of
                   Corporation                                  Subgrantees Subject
                       Funds             Number of                To A-133 Audit
Propram Year        Subwanted            Submantees                Requirements
Determination of the number of subgrantees subject to OMB Circular A-133 audit
requirements is based on information received from the Commission and the dollar value of
federal awards passed through the Commission during the program year. Other subgrantees
could be subject to an OMB Circular A-133 audit if additional federal hnds were received
from other sources during the program year.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Rhode Island State subgrantees, including
       AmeriCorps Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Rhode Island Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.
As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on December 15, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not,
perform an audit of any financial statements, and the procedures described above are not
sufficient to express an opinion on the controls at the Commission or its compliance with
laws, regulations, contracts and grants. Accordingly, we do not express an opinion on any
such financial statements or on the Commission's controls and compliance. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

We provided a draft of this report to the Rhode Island Service Alliance: A Commission for
National and Community Service and the Corporation for National and Community Service.
The Commission's and the Corporation's responses to our findings and recommendations are
included as Appendix C and Appendix D, respectively.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The Rhode Island Commission has developed
various procedures to comply with this requirement.

The Commission announces the availability of funds through various methods including
advertisements in local periodicals, direct mailings to non-profit organizations maintained by
the Commission in a database, as well as through three to five informational sessions held
throughout the state. During 1995 and 1996, concept papers were due approximately four
weeks after the Request for Proposal was issued. These concept papers discussed the
framework of a potential ArneriCorps program.

The concept paper requirement was eliminated in 1997, and all applicants now submit
applications. The Commission aIso began three-hour mandatory technical assistance sessions,
during 1997, which instructed applicants on the proper way to complete the application.

All applications and concept papers are initially reviewed by members of the Peer Review
Committee. This Committee consists of four to five individuals who have extensive
experience in national and community service, thorough understanding of community needs,
and represent a diverse group. Peer review members receive a summary of all applicants,
copy of each concept paper or application, reviewer comment forms, concept paper
guidelines and ArneriCorps Program Application Guidelines. All applications go through two
levels of review. The primary review consists of a thorough understanding of the concept
paper with specific comments made on the reviewer comment form. The second reviewer is
responsible for reviewing the concept paper, but is not responsible for documenting
comments on the review form. All reviewers rank each application on a scale of one to three.
One represents a definite recommendation to the Commission and three represents a definite
rejection.

The Committee convenes after all applications are reviewed to determine which applicants
will be recommended to the Commission. The CommissionTs Governing Board Committee
reviews recommendations provided by the Peer Review Committee and selects which
applicants will be requested to submit full Corporation applications. Another review
committee will review these applications and make recommendations to the Commission's
Governing Board. The Board forwards approved applications to the Corporation for funding.

Before grants are officially awarded, the Commission performs and documents its review of
subgrantee financial systems and related controls, and A-133 audit reports to ensure selected
subgrantees have financial systems in place to properly manage the federal grant money.

Based on the results of our testing, we believe the documentation maintained by the
Commission to support the selection process is adequate.

Administration of Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" ( A Reference Manual for Commission
Executive Directors and Members, Section 4.3). Based on the results of our testing, we
believe the documentation maintained by the Commission to support the administration of
grant funds is adequate. However, we identified the following areas for improvement related
to the evaluation of subgrantee compliance with reporting and grant requirements.

              Lack of evidence of Financial Status Report review, including
                     matching recalculation for years prior to 1999

Commission procedures indicate that subgrantee Financial Status Reports are reviewed, and
matching requirements are recalculated. However, no evidence exists to document that this
review was performed prior to 1999, and the Commission's recalculation of match
requirements only included inquiry of procedures used by subgrantees to report match
amounts. During the 1999 program year, the Commission implemented procedures that
require:
       Subgrantees request reimbursements on a fixed quarterly schedule, which corresponds
       with the federal fiscal year;
       Commission staff review support for cash receipts and disbursements during site
       visits; and
       Commission staff complete ArneriCorps Financial Status Report Review Sheets to
       document their review of the FSRs. During this review, Commission staff verify
       mathematical accuracy, accuracy of previously reported amounts, consistency of
       reported federal expenditures with federal h n d draw-downs, and determine whether
       the program has met its matching requirements.

In addition, while Commission personnel review support for cash receipts and disbursements
during site visits, they do not trace those transactions into the subgrantees' accounting
system.

Our review of FSRs also identified one instance where the FSR was mathematically
inaccurate and one instance where the FSR was missing.

Because of these conditions, errors on the FSRs may exist and remain undetected. Although
all subgrantees are on a reimbursement only basis, if subgrantee FSRs are not verified to the
subgrantees' accounting system, there is an increased risk that subgrantees are incorrectly
reporting amounts on their FSRs and the Commission lacks reasonable assurance that
subgrantees are correctly reporting amounts on their FSRs.

We recommend the Commission continue to implement the new procedures to review
subgrantee FSRs, recalculate matching requirements and document the results of this review.
In addition, the Commission should implement site visit monitoring procedures that require
the verification of amounts reported on subgrantees' FSRs to the subgrantees' accounting
records.

                Cash basis reporting for Learn and Serve grant funding

Annually, the Commission receives between five and eight percent of its hnding through
Learn and Serve grants. During the period under review, the Learn and Serve program was
required to submit FSRs on a quarterly basis. However, Commission procedures did not
require that subgrantees submit FSRs. Instead, subgrantees submitted Draw Down Requests
on a fixed quarterly schedule which corresponds with the federal fiscal year. Subgrantees are
required to submit a report even if they are not requesting funds. This report includes the total
amount of award, total grantee match, amount requested, grantee match for the period, total
funds requested to date, total amount disbursed to date and identification of expenses
incurred which were not included in the approved budget.

The Commission uses these requests to compile the FSRs submitted to the Corporation.
Since the Commission submits FSRs to the Corporation on a cash basis, the federal outlay
portion is calculated using the PMS 272 report, Federal Cash Transactions Report, and a
journal of disbursements made by the Rhode Island Commission. The reported match amount
is calculated using matches reported by individual programs on their draw down requests.

As these procedures do not appear to conform to the Corporation's requirements, we
recommend that the Corporation follow up with the Commission to resolve the issue of cash
basis FSRs for the Learn and Serve subgrantees.

Evaluation and Monitoring of Subgrantees

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

We identified the following area for improvement related to the evaluation and monitoring of
subgrantees.

            The evaluating and monitoring system for subgrantees needs to be
                             improved at the Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D $ 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved."

During our review of monitoring files for subgrantees, we determined that certain
information was not included in the site visit documentation. Specifically, the names of the
Member files reviewed, identification of Members where exceptions were identified, and
procedures followed to select the Members reviewed were not included. In addition,
comments included on the checklists were general in nature. Therefore, we were unable to
reperform or otherwise review the monitoring procedures performed by Rhode Island
Commission personnel.

We recommend that the Commission revise its policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow-up on findings and recommendations). This
will allow the Corporation to assess the Commission's oversight of subgrantees when it
performs its planned Commission administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.
Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.



This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the Rhode
Island Service Alliance: A Commission for National and Community Service, and the United
States Congress and is not intended to be and should not be used by anyone other than these
specified parties.




Washington, DC
December 15, 1999
APPENDIX A -RHODE ISLAND COMMISSION FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                              FUNDING TO THE RHODE ISLAND SERVICE ALLIANCE




                                    L
                                    AMERICORPS
                                                                                       1 PDAT
                                                                                                    ADMINISTRATION
                                      COMPETITIVE                  FUNDS                FUNDS.         FUNDS "
             FUNDS                      FUNDS:                     $95,000              $56,510        $148,789
            $276,000                   $1,170,617

             MATCH.
            $105,130
                                          MATCH:
                                         $659,898
                                                            I      MATCH
                                                                   $43,993
                                                                                         NO
                                                                                        MATCH
                                                                                                       MATCH-
                                                                                                       $37,197




                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $1,746,916




                                                     FUNDS AWARDED TO SUBGRANTEES
                                                               $1,526,249
                                                 I




                                       AMERICORPS
                                                                        I
                                                                AMERICORPS
                                        FORMULA,                COMPETITIVE
                                         $276,000                $1,170,617

                                           MATCH                    MATCH               MATCH:
                                          $105,130                 $659,898             $43,993

                                        TOTAL # OF
                                          SUBS:                      SUBS:
                                                                       2
                                                                                  I    TOTAL # OF
                                                                                         SUBS
                                                                                           14

                                        TOTAL # OF               TOTAL # OF            TOTAL # OF
                                          SITES.                   SITES-                SITES
                                                                     20                    63




 Total Carryovers for 1995 (Not included In the current year funding amounts above).




 " Disability funds included in grant award
APPENDIX A -RHODE ISLAND COMMISSION FUNDING




                                                      CORPORATION FOR NATIONAL SERVICE
                                                 FUNDING TO THE RHODE ISLAND SERVICE ALLIANCE
                                                                    1996


                                                                        I                     I                 I
  K ~ rJ
      AMERICORPS                  AMERICORPS
                                  COMPETITIVE                                               FUNDS            FUNDS "




  1                     1 1
          FUNDS                     FUNDS                                                  $121,000          $197,165
         $300,000                  $1,773,825

         MATCH:                                                      MATCH                  MATCH            MATCH
                                     MATCH
                                                                     $82,025               REQUIRED          $44,197
                                     $954,254




                                                                        1
                                                  TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                   $2,511,875




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $2,211,825


                                             I
                                      AMERICORPS                     AMERICORPS
                                                                     COMPETITIVE
                                                                      $1,773,825

                                          MATCH
                                         $116,522

                                       TOTAL # OF
                                                        / I              MATCH
                                                                        $954,254

                                                                      TOTAL # O F
                                                                                      /            MATCH
                                                                                                   $82,025

                                                                                                TOTAL # OF
                                                                                                  SUBS.
                                                                                                    17



                                         OF SITES
                                            10
                                                        I        I      0             I            TOTAL #
                                                                                                  OF SiTES
                                                                                                     75




Total CarryOVerS for 1996 (Not Included in the current year funding amounts above).


AmeriCorps          $   169,223
Administration.     $     8,328
PDAT-               $    41,000

" Disability funds included in grant award
APPENDIX A -RHODE ISLAND COMMISSION FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                             FUNDING TO THE RHODE ISLAND SERVICE ALLIANCE
                                                                1997



                                                                                      t
                                                                                      PDAT
      FORMULA FUNDS.                 COMPETITIVE                   FUNDS:              FUNDS               FUNDS."
         $323,755                      FUNDS-                     $204,085            $139.594             $157,998
                                      $1,708,430

           MATCH
           $116,960
                                         MATCH
                                        $971,245
                                                                   MATCH:
                                                                  $225,484
                                                                                       NO
                                                                                      MATCH
                                                                                                       I   MATCH
                                                                                                           $60,321




                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                              $2,533,862




                                I                    FUNDS AWARDED TO SUBGRANTEES
                                                               $2,299,185
                                                                                                   I
                                       FORMULA                  COMPETITIVE
                                                                                      I  L 8S
                                                                                       $267,000
                                        $323,755                 $1,708,430

                                         MATCH,                    MATCH               MATCH.
                                        $116,960                   $971,245            $225,484

                                                                 TOTAL # OF           TOTAL # OF
                                             SUBS:      I          SUBS:                SUBS-
                                               1                                          25

                                      TOTAL # OF                                      TOTAL # OF
                                        SITES.                                          SITES:
                                          7                                               72




Total Carryovers for 1997 (Not included in the current year funding amounts above)'

AmenCorps:       $      158,390
Adrn~n~strat~on.         26,998
PDAT                     43,594

" Dlsabillty funds lncluded In grant award
APPENDIX A -RHODE ISLAND COMMISSION FUNDING




                                                CORPORATION FOR NATIONAL SERVICE
                                           FUNDING TO THE RHODE ISLAND SERVICE ALLIANCE
                                                              1998




         AMERIC RPS                   AMERICORPS
                                                                                  1
                                                                                          1
                                                                                         PDAT
                                                                                                              1
                                                                                                        ADMINISTRATION
                                      COMPETITIVE                                       FUNDS.             FUNDS."
                                                                                       $174,550            $136,369
                                        $2,433,716


            $148,953                     MATCH
                                        $2,085,530      //          MATCH
                                                                   $351,809
                                                                                  -
                                                                                          NO
                                                                                        MATCH
                                                                                       REQUIRED
                                                                                                            MATCH,
                                                                                                           $136,369




                                             +                        +                    v
                                                                                                    I

                                 I         TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                            $3,287,550
                                                                                                    I
                                                    FUNDS AWARDED TO SUBGRANTEES
                                                              $2,964,216




                                     1A
                                      AMERICORPS                AMERICORPS
                                       FORMULA                  COMPETITIVE             $201,500
                                        $329.000                 $2,433,716

                                         MATCH                     MATCH                 MATCH:
                                         $148,953                 $2,085,530            $351,809

                                       TOTAL # OF                TOTAL # OF            TOTAL # OF
                                         SUBS-                     SUBS
                                                                                         SUBS:
                                             1                       6

                                       TOTAL # OF                TOTAL # OF
                                         SITES                     SITES
                                           12                        79




 Total Carryovers for 1998 (Not Included In the current year funding amounts above).

 Amencorps-               89,547
 Learn &Serve.             3,000
 Admin:                    3,000
 Disability               58,800
 PDAT               $     15,754

 " D~sab~l~ty
         funds included in grant award
APPENDIX A - RUODE ISLAND COMMISSION FUNDING




                                                      CORPORATION FOR NATIONAL SERVICE
                                                 FUNDING TO THE RHODE ISLAND SERVICE ALLIANCE
                                                                    1999
                                                                I



             *
      AMERICORPS
                                        &
                                AMER~ORPS
       FORMULA                  COMPETITIVE                 FUNDS:                FUNDS:               FUNDS:"         FELLOWSHIP
        FUNDS:                    FUNDS:                   $1 71,430              $96.000              $167,690          FUNDS:
        $360,000                 $2,365,076                                                                              $65.000

        MATCH:
        $167,114
                                  MATCH:
                                 $2,501,564
                                                           MATCH:
                                                           $340,428
                                                                                    NO
                                                                                  MATCH
                                                                                 REQUIRED
                                                                                                       MATCH:
                                                                                                       $176,857   I/     MATCH:
                                                                                                                         125.388




                                        v                                            &
                                                                                      I
                                                 TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                  $3,225,196




                                    I                   FUNDS AWARDED TO SUBGRANTEES
                                                                  $2,965,076                                I
                 FORMULA:                            COMPETITIVE:
                  $360,000                            $2,365,076

                  MATCH:                               MATCH:                              MATCH:
                  $167,114                            $2.501.564                           $340,428




                                                 I
                 TOTAL # OF                                                               TOTAL # OF
                   SUBS:                                SUBS:                               SUBS:
                     1                                                                        14




         8
                 TOTAL # OF
                   SITES:
                                                 1    TOTAL # OF
                                                        SITES:
                                                          83
                                                                                          TOTAL # OF
                                                                                            SITES:
                                                                                              50




      11 Carryovers for 1999 (Not include1d in the current year funding amounts above):

 AmeriCorps:           $      289,010
 Learn & Serve:                 7,182
 Admin:                        26,040
 Disability:                   74.667

 '^   Disability funds included in grant award
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to
determine the adequacy of the Commission's internal controls surrounding the following to
ensure compliance with Part 6 of A-133, Internal Control of the Compliance Supplement to
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations:
overall control environment; activities allowed or unallowed and allowable costs; cash
management; eligibility; equipment and real property management; matching; period of
availability of Corporation funds; procurement and suspension, debarment; program income;
and reporting by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B     - DETAILED    ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administration of Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to determine the accuracy of submitted Financia1 Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System.

Evaluation and Monitoring of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission7s procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are accurately reported
       and compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to determine the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the
sites. We also determined whether the Commission received and reviewed A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether adequate training and technical
       assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C - RHODE ISLAND COMMISSION RESPONSE




                                                  RHOUE            ISLAND SERVICEAI,I,HNCE
                                                  A COMMISSION FOR NATIONAL & COMMUNITY SERVICE



     May 23,2000

     Louise Jordan, Inspector General
     Corporation for National Service
     1201 New York Ave. NW
     Washington, DC 20525


     Dear Ms. Jordan:


     Thls letter 1s bemg subnutted In reply to the draft outcomes report sent to our agency based on
     data collected d u m g the December 1999 pre-audlt survey conducted by an audlt team from
     Urback, Khan, W e r h & Associates At this tme, the Rhode Island Service Alhance's board and
     staff respectfully request that the p r e h a r y h d m g s clted from the pre-audlt survey be
      reconsidered for the reasons o u t h e d below


      Because we are requesting reconsideration, this correspondence is being submitted in lieu of a
      formal response to the draft h d m g s After you revlew the mformat~onpresented m this letter,
      we are hoping to receive revised feedback from the pre-audit survey to which we can formally
      respond


      I s s u e a s i d e n t l f l e d ~n t h e p r e - a u d l t s u r v e y                                       1

      L e a r n & S e r v e A m e r i c a reporting o n c a s h b a s l s
      L a r n & S e r v e A m e r l c a F l n a n c l a l S t a t u s Reporting

      The Rhode Island Service Alliance reports on a cash basis. Reporting on a cash or accrual basis
      is a choice offered to state service commissions on the OMB-approved Financial Status Report
      (FSR) forms. The Rhode island Service Alliance's choice to r e p r i on a cash basis enables us to
      submt information that to the Corporation for National Service (CNS) that ties At6 our internal
      hancial records (specificallyto our monthly cash expehditure reports for Learn & Serve
      developed from our trad balances) This allows us to l i m ~ our
                                                                  t federal cash on hand It is also
      appropnate because many of the subgrantees that we fund in the Learn &Serve America
      portfolio report on cash vs accru+ bases


      Learn &!%me Arnenca Commun~ty-basedsubgranteesdo not, at this time, submz$M@u                                                           the-    -
                                                                                                                                                           *
                                                                                                                                     i   *
      Service Alllance Subgrantees report expenditures and advances on quarterly dra&aown

                                                                                                                               I             !ap 2 6 2000
                                                                    .                                         .
     P O Box 7 2 8 2 2 , P r o v ~ d e n c e ,R h o d e l s l a n d 0 2 9 0 7 . T E L ~ 3Q3 1I 2 2 9 8 ( V O I C E / T T Y ) . AX 6 1 3.31 2 2 7 3
                                                                                                                                 I

                                                                                                                                   ---
                                                                                                                                        =
     E M A I L c o r n m u n t r y @ r ~ s e r v l c e a l l ~ a n coer g W E B r ~ s e r v ~ c e a l l ~ a no cr ge R I R E L A ? I 8 0 0 7 4 5 5 5 5 5
                                                                                                                                                               -
APPENDIX C - RHODE ISLAND COMMISSION RESPONSE




                                                  RHODE ISLAND SERVICEAULANCE
                                             .   A COMMISSION FOR NATIONAL & COMMUNITY SERVICE



     request forms However, the draw-down request form used by our agency was develupedfrorn
     the d ~ ~ - a ~ ~ r FSR
                          o v form
                               e d Therefore, the mformation normally collected m an FSR IS
     mcorporated mto the Serv~ceAlllance draw-down form but                                       IS   augmented with addlhonal
     mformatlon (such as a break down of expendlturrs to date by major Learn & Serve Arnenca
     grant categories)
                \


     The utation regard~ngcash b a s s reporhng and Learn & Serve Arnerlca was also of considerable
     concern to the Serv~ceAhance board and staff because ~twas not discussed durmg the exlt
     mtervlew wlth Urback, Khan, W e r h & Associates audltors It was our understandmg, based
     on the protocols that the audit team descnbed durmg the entrance mtervlew, that all feedback
     clted m the draft report issued by the Ofhce of the Inspector General would necessarily be
     discussed m the exlt mtervlew


     The Servlce Alhance wdJ separate out financial status mformahon and draw-down requests
     onto separate forms beginning October 1,2000

     I s s u e a s I d e n t i f i e d in t h e p r e - a u d i t s u r v e y :
     I n a b l l l t y of t h e a u d l t t e a m t o r e - p e r f o r m t e s t s

     The draft feedback subnutted to the Service Ahance states that comments on slte vlslt tools are
     vague. Site visit reports issued by the Rhode Island Service Alliance to grantees cite each and
      every comphance issue identtfied by staff during on-site reviews As such, reports issued to
      grantees can be viewed as pnmary source documents for site vislts


      Comments wntten on slte vlslt tools are used wlth the express purpose of accurately capturing
      mformahon that will be articulated m site vlslt reports issued to grantees Wntten comments by
      staff are fded with jargon and abbreviahons (e g s-l for servlce-learnmg) and fall prey to the
      legbhty of the wnter's hand, but comments can be mterpreted by auditors wlth the alde of
      Servlce Ahance staff Slte v w t reports are begun elther on the day-of or on the day followmg a
      vislt m order to ensure that comphance concerns are transcribed fully and accurately onto slte
      visit reports to grantees


      The board and staff of the Sewice Alliance believe that testing conducted during on-site visits
      could have been re-performed by iuditors seelung to do so The draft pre-audlt survey hndlngs

     P O Box
     E   MAIL
                    72822,   Providence,
                                                                   .
                                                 Rhode lsland 0 2 9 0 7 .
                c ~ r n r n u n ~ t y @ r ~ ~ e r v ~ c e a l lo~r ag n c W
                                                                          c EB
                                                                                   T E L ~ 3O3 1I
                                                                                                                        .
                                                                                                         2298 (VOICE/TTY).
                                                                                 r l s e r v l c e a l l ~ a n c eorg
                                                                                                                                F A X4 0 1 3 3 1 2 2 7 3
                                                                                                                        R I RELAYI 800 745 5555
APPENDIX C - RHODE ISLAND COMMISSION RESPONSE




                                                      -       --- SERVICE ALLLANCE
                                                       RHODE NAND                                                                                                            -
                                                       A COMMISSION FOR NATIONAL & COhZMUNI'IY SERLICE



     clte that AmerlCorps member names whose records were tested were not mamtamed m Servlce
     Akance records Thrs 1s maccurate - the names of members are mamtained m slte wslt records
     and were rev~ewedd u m g the pre-audlt survey Member test files are l d e n ~ e d
                                                                                     usmg Nth
     randomzatlon whlch con'fonns to commonly accepted evaluahon pnnclples for prudent subject
     select~on


     Notations about member Me contents are clted m aggregate o n a t e vlslt tools For example, a
     checkmark represents that 3 of 3 subects (members) are complmnt on a particular Issue (e g
     appropriate age ehglblhty documentatlon) When test subjects are mcons~stentwlth
     documentatlon on a parhcular issue (e g photographs on cltizenshlp docurnentanon are not
     sufhclently clear) and areaccordmgly out-of-comphance, the slte vmt tool 1s noted wlth the
     cltatlon (0 of 3 , l of 3, or 2 of 3) Whde uldlv~dualnames are not ~dentlfied,a small sample slze
     allows the easy re performance of the test by p u h g each of the three files that were tested and
     comparmg them


      It was noted by the Serv~ce4lhance board that the re-performance of tests by extemal groups
      ( e g audltois) - whlle a standard and prudent fiscal practlce - IS undermmed by the fact that
     comphance Issues, once ldenhfied by state service comrmsslons, are monitored untd they are
     addressed Once comphance issues are corrected, re-performanceis inaccurate


      It was also noted by the Service Ahance board that the cltahon regardmg reperformance of
      tests conducted by the Servlce Ahance staff was unusual pven the fact that attempts to re-
      perform the tests at the legal apphcant sltes did not occur


      Nevertheless, the Service Alliance is currently mamtammg ~solated,member-speclhc data for
      each test conducted on a member's file ih order to reduce bamers hereto-forward relative to
      test re-performance by external groups


      I s s u e a s ~ d e n t l f i e dI n t h e p r e - a u d l t s u r v e y .
      F S R s w e r e n o t sufficiently r e v i e w e d p r i o r t o 1 9 9 9

      It was noted that an error was ldentlfied in a 1998 FSR of the Public Education Fund regarding
      its match funds. The immaterial, trdnsposition was corrected during in the subsequent FSR



                                                                            .
     P . 0 B o x 7 2 8 2 2 , P r o v i d e n c e , R h o d e I s l a n d 0 2 9 0 7 . T E L ~ O3 3I 1 - 2 2 9 8 ( V O I C E / T T Y )F. A X J O I 3 3 1 - 2 2 7 3
     E - M A I L :c o m m u n i t y @ r l s e r ~ i c e a I l i a n c c . o r g W E B : r i s e r v i c e a l l l a n c e . o r g R . I . R E L A YI 8 0 0 7 4 5 - 5 5 5 5
APPENDIX C         - RHODE ISLAND                                COMMISSION RESPONSE




                                   --           -   RHODE
                                                    -.    ISIP;NDSERVICE ALLIANCE
                                                    A COMMISSION FOR NATIONAL Ri COMMUNITY SERVICE
                                                                                                                                                  -




     filed by the legal apphcant This citation does not suggest that j u d ~ c ~ o uand
                                                                                     s consistent FSR
     review     dld not occur prior to the development of an FSR checklist m July of 1998 by the current
     Executive Duector


     Grantee FSRs are revlewed by the Service Akance Execuhve D~rector T h ~ has
                                                                             s been part of the
     executlve duector's responsibltles smce the mceptlon of the agency In 1994 The foumdmg
     executlve duector (ED) tramed hls successor m the FSR revlew protocols he developed m
     tandem w ~ t hthe Service Alhance's CPA The former ED dlsposed of hls revlew papers after
     revlewmg each set of FSRs In an effort to create better mst~tuhonalmemory and m the sprnt of
     conhnuous Improvement, the current ED developed a formal checkhst that described the
     standard revlew protocols used over a number of years


     The accuracy of AmeriCorps grantee FSRs submitted to CNS prov~desa sound basis on which
      to deterrrune that FSRs were revlewed from 1994-present m a* effectlve manner


      Ancillary n o t e
      We would Wte to take thls opportunity to let you know that the audlt team from Urback, Khan,
      W e r h , & Assocmtes was profess~onal,accessible and candld about the pre-audlt'suniey
      process They also made very'real efforts to rmnlmue dlsruptlons m our day-to-day work
      Overall, the pre-audlt survey process has been useful m e n g a p g the Rhode Island Servlce
      Ahance m a process of reflectwe, organuahonal leammg It has connected the staff to the
      history of our Natlonal Service portfolio - both fiscally and programmatically This process has
      also engaged rhe enhre staff ifi an on-gomg dialogue about the importance of bulldmg
      monltormg systems that tell the story of our state serv~cec o m s s i o n wthout the need for a n '
      mterpreter


      Please d o not hesitate to contact me with any queshons, comments or concerns by emall at
      nbs8nservlcealliance org or by phone at (401) 331-2298 x 15 Thank you for revlewmg this
                                                                                 <
     vequest for reconsideration




      Nicole Boothman-Shepard, Executive Director
                                                    '.

                                                                    .                                                        .
     P O Box 7 2 8 2 2 , P r o v ~ d e n c e ,R h o d e I s l a n d 0 2 9 0 7 . T F L ~ 3O3 1I 2 2 9 8 ( V O I C E ~ T T Y F) A X4 0 1 3 3 1 2 2 7 3
     E M A I L c o r n m u n ~ t y @ r ~ s e r v ~ c e a I l ~ oa rngc e W E B r ~ s e r v ~ ~ e a l l ~ ao rn gc e R I R E L A Y I 8 0 0 7 4 5 - 5 5 5 5
APPENDIX D - CORPORATION RESPONSE




                                                              CORPORATION

                                                              FOR NATIONAL
          MEMORANDUM
                                                              QSERVICE

           TO:                 Ixise S. Jordan

           THRU:               Anthony

           FROM:               Deborah R. Josp.
                               Bruce H. Cline

           DATE:               May 1 1,2000

           SUBJECT:            Response to the Draft Audit Report 00-27 Pre-Audit Survey of the
                               Rhode Island Service Alliance: A Commission for National and
                               Community Service


           We have reviewed the draft report on your pre-audit survey of the Rhode Island Service
           Alliance. Given the nature of the report, this response serves as our proposed
           management decision. We note that your preliminary assessment does not recommend a
           full-scope audit at this time but that the Office of Inspector General (OIG) reviews the
           Commission's A-133 audit reports and supporting auditors' workpapers to determine if
           additional work is necessary. The OIG also recommended that reviews of Member
           service hours and matchiniamounts by subgrantee should be considered. The draft audit
           report includes a recommendation to the Corporation. We are providing the following
           response to that recommendation. The Inspector General recommended:

                     "Additionally, we (the Inspector General) recommend that the Corporation follow
                     up with the Commission to determine that appropriate corrective actions are put
                     into place to address the conditions reported herein, and that the Corporation
                     consider these conditions in its oversight and monitoring of the Rhode Island
                     Commission."

            Some of the conditions cited in the "results in brief' section of the report include
            concerns related to the lack of adequate controls in place to evaluate and monitor
            subgrantees and a lack of evidence of Financial Status Report review, including
            matching recalculation for years prior to 1999.

            Given our limited program administration resources, we developed a plan to assess State
            Commission administration functions. Over a three-year. .ueriod, we will be reviewing
            each of the state commissions. As part of our follow-up with Rhode Island, we will -
            determine whether the Commission has put appropriate corrective actions in place for
            conditions noted in the pre-audit survey that your office has issued.




     NATIONAL SERVICE: G E l l I N G THINGS DONE                         1201 New York Avenue, N.W. Washington, D.C. 20525
                -
     amenmencorpskmn o n d ~ ~ m m ~~o /ci o ~m /~~ e n i m    cops      telephone: 202-606-iO00   website: iuawnNonakervice.org
